                       0

 DEFENSE SPECIAL WEAPONS AGENCY ADVISORY PANEL ON
       THE NUCLEAR WEAPON EFFECTS PROGRAM




Report Number 98-149                           June 8, 1998




             Office of the Inspector General
                 Department of Defense
  Additional   Information   and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATIN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.



Acronyms

DSB                  Defense Science Board
DSWA                 Defense Special Weapons Agency
FAR                  Federal Acquisition Regulation
                     Nuclear Weapon Effects
zIE                  Organizational Conflict of Interest
OSD                  Office of the Secretary of Defense
PMR                  Procurement Management Review
RDA                  Research and Development Associates
SAGE                 Scientific Advisory Group on Effects
SETA                 Scientific and Engineering Technical Analysis
TI                   Technical Instruction
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                              June 8, 1998

MEMORANDUM          FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION
                           AND TEcHNoLoGY
                        ASSISTANT TO THE SECRETARY OF DEFENSE
                           (NUCLEAR CHEMICAL, AND BIOLOGICAL DEFENSE
                           PROGRAMS)
                        DIRECTOR DEFENSE PROCUREMENT
                        DIRECTOR ADMINISTRATION    AND MANAGEMENT,
                           OFFICE OF THE SECRETARY OF DEFENSE
                        DIRECTOR DEFENSE SPECIAL WEAPONS AGENCY

SUBJECT:     Audit Report on the Defense Special Weapons Agency Advisory Panel on the
             Nuclear Weapon Effects Program (Report No. 98- 149)


         We are providing this audit report for review and comment. The audit was
conducted in response to allegations made to the Defense Hotline. Comments from the
Defense Special Weapons Agency on a draft of this report were considered in preparing
the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Director, Defense Special Weapons Agency, provide
comments on Recommendations      a. and b. by August 10, 1998.

        We appreciate the courtesies extended to the audit staff. If you have questions on
this audit, please contact Mr. Garold E. Stephenson at (703) 604-9332 (DSN 664-9332)
or Mr. Eric B. Edwards at (703) 604-9219 (DSN 664-92 19). See Appendix E for the
report distribution. The audit team members are listed on the inside back cover.




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                             for Auditing
                      Office of the Inspector General, DOD
Report No. 98-149                                                            June 8,199s
  (projectNo. 7CH-8005)

          Defense Special Weapons Agency Advisory Panel on the
                    Nuclear Weapon Effects Program

                                Executive Summary

Introduction. We performed the audit in response to allegations made to the Defense
Hotline concerning conflicts of interest among members of the Defense Special
Weapons Agency Advisory Panel on the Nuclear Weapon Effects Program.

Audit Objectives. The overall objective of the audit was to determine the validity of
the allegations made to the Defense Hotline concerning potential conflicts of interest.
The specific audit objectives were to determine whether the Defense Special Weapons
Agency established and contracted for the Panel in accordance with applicable laws
and regulations, and to evaluate the management control program as it applied to the
overall audit objective. A discussion of the management control program can be found
in Appendix A.

Audit Results. The allegation of conflicts of interest was partially substantiated.
Although the Defense Special Weapons Agency could have requested the Defense
Science Board, an approved Federal Advisory Committee, to conduct the study; they
acquired the services of members of the Advisory Panel on the Nuclear Weapon Effects
Program through an omnibus scientific and engineering technical analysis services
contract. Six of the seven members of the Advisory Panel were employees of
contractors who are likely to have future Defense Special Weapon Agency contracts.
As a result, the procedures the Defense Special Weapons Agency followed to acquire
the services of the Advisory Panel did not adequately protect DOD from potential
conflicts of interest and did not ensure that DOD received the best value for the
$277,074 in costs incurred by the Defense Special Weapons Agency for the Panel.

Summary of Recommendations. We recommend that the Director, Defense Special
Weapons Agency, implement the recommendations in the January 1996 Procurement
Management Revrew Report as they relate to contract DNAOOl-93-C-0138; initiate
action to replace DNAOOl-93-C-0138 with task order contracts in FY 1998; require
future consulting agreements and contracts to have full financial and potential conflict
of interests disclosures from any advisory panel members.

Management Comments. The Defense Special Weapons Agency agreed to implement
the recommendations in the January 1996 Procurement Management Review Report
relating to contract DNAOOl-93-C-0138 and agreed to require full financial disclosure
on future contracts for advisory services. The Defense Special Weapons Agency did
not want to initiate action to replace the current scientific engineering and technical
analysis contract until after October 1998 when the Defense Special Weapons Agency
with other activities in DOD are combined into a new Defense Threat Reduction
Agency. The Defense Special Weapons Agency considered the nondisclosure
agreements signed by the Panel members to be an effective response to the potential
conflicts of interests associated with the Nuclear Weapon Effects Program and did not
want to go back now and request additional disclosures from Panel members. Part I
contains a discussion of the management comments to the finding and
recommendations. Part III contains the complete text of management comments.

Audit Response. In view of the Defense Special Weapons Agency comments and
because the subcontract cited in the allegation was completed 15 months previously, we
revised the draft recommendation on obtaining additional disclosures from Panel
members and deleted a recommendation on reviewing future contracts to determine if
Panel members’ firms had organizational conflicts of interests. We request additional
comments on implementing the recommendations in the Procurement Management
Review Report and replacing the scientific engineering and technical analysis contract
by August 10, 1998.




                                           ii
Table of Contents


Executive Summary

Part I - Audit Results
      Audit Background                                                             2
      Audit Objectives                                                             3
      Advisory Panel on the Nuclear Weapon Effects Program                         4

Part II - Additional Information
      Appendix A.     Audit Process
        Scope                                                                     22
        Methodology                                                               22
        Management     Control Program                                            23
      Appendix B.     Summary of Prior Coverage                                   24
      Appendix C.     Allegations Made to the Defense Hotline and Audit Results   25
      Appendix D      Acquiring Services by Contract                              27
      Appendix E.     Report Distribution                                         29

Part III - Management Comments
      Defense Special Weapons Agency Comments                                     32
Part I - Audit Results
Audit Background

    Hotline Allegations. We performed the audit in response to allegations made
    to the Defense Hotline concerning conflicts of interest among members of the
    Defense Special Weapons Agency (DSWA) Advisory Panel (the Panel) on the
    Nuclear Weapon Effects (NWE) Program. See Appendix C for a discussion of
    the allegations to the Defense Hotline and the results of our review.

    Defense Special Weapons Agency. DSWA supports DOD and other Federal
    agencies on matters concerning nuclear weapons and other special weapon
    matters. The charter for DSWA is set forth in DOD Directive 5 105.3 1. The
    DS WA mission encompasses:
          o managing the Cooperative Threat Reduction Program and the nuclear
    weapons stockpile;

           o conducting research and development on weapons effects to ensure
    U.S. forces are prepared to operate on future battlefields against opponents who
    may possess conventional, nuclear, biological, or chemical capabilities;

            o performing survivability and lethality tests to support areas such as
    target vulnerability assessments and research requirements for reliable and
    survivable military systems; and

           o providing technical support for counterproliferation and treaty
    compliance.

    In November 1997, the Secretary of Defense approved the establishment of the
    Defense Threat Reduction Agency by consolidating DSWA and two other
    existing agencies: the On-Site Inspection Agency and the Defense Technology
    Security Agency. The organizational change will eliminate redundancy,
    consolidate related functions, and devolve certain operational and program
    management functions from the office of the Under Secretary of Defense
    (Policy) and the Office of the Assistant to the Secretary of Defense (Nuclear,
    Chemical, and Biological Defense Programs) to the new organization. The
    Defense Threat Reduction Agency will stand up as a new agency on
    October 1, 1998.

    Guidance on Service Contracting. Federal Acquisition Regulation (FAR)
    Part 37, “Service Contracting,” prescribes general policy and procedures for
    acquiring services by contract. It distinguishes between contracts for personal
    services and those for nonpersonal services and includes special conditions to be
    observed in acquiring advisory and assistance services. Appendix D provides
    additional information on acquiring services by contract.
Audit Objectives

     The overall objective of the audit was to determine the validity of the allegations
     made to the Defense Hotline concerning potential conflicts of interest. The
     specific audit objectives were to determine whether the Defense Special
     Weapons Agency established and contracted for the Panel in accordance with
     applicable laws and regulations and to evaluate the management control program
     as it applied to the overall audit objective. See Appendix A for a discussion of
     the audit scope and methodology and details on the management control
     program.




                                         3
            Advisory Panel on the Nuclear Weapon
            Effects Program
            The allegation of conflicts of interest on the part of the NWE Panel
            members was partially substantiated. DSWA acquired the services of
            the members of the Advisory Panel through an omnibus scientific and
            engineering technical analysis (SETA) services contract. Six of the
            seven members of the Advisory Panel were employees of contractors
            who have current, and are likely to have future, DSWA contracts.
            DSWA could have requested the Defense Science Board (DSB), an
            approved Federal Advisory Committee, to conduct the study.

            DSWA contracted for the services because:

                    o the Deputy Director of DSWA wanted a specific person to
            chair the Panel so that the Deputy Director could exercise greater control
            over the Panel;

                   o in 1993 DSWA, at the direction of the Office of the Secretary
            of Defense (OSD), terminated its Scientific Advisory Group on Effects
            (SAGE), which was a Federal Advisory Committee;

                   o the Deputy Director of DSWA believed the membership of the
            Defense Science Board was unsuitable to conduct such a study; and

                   o the pre-existing omnibus SETA contract, with its broad
            statement of work allowed DSWA to obtain the services of Panel
            members quickly and noncompetitively.

            As a result, the procedures DSWA followed to acquire the services of
            the Panel did not adequately protect DOD from potential conflicts of
            interest and did not ensure that DOD received the best value for the
            $277,074 in costs incurred by DSWA for the Panel.


Establishment of the Advisory Panel

     Requirement for the Panel. In March 1996, the Deputy Director of DSWA
     requested that DSWA contract for a panel of non-Federal personnel to develop a
     framework of the DSWA NWE Program. The charter for the Panel was
     established May 1, 1996. It tasked the Panel to perform a study and to establish
     the rationale and main features of a program that preserves the long-term quality
     and reliability of nuclear weapon effects technology for DOD while
     incorporating new technology into user-friendly tools for warfighters.



                                         4
                       Advisory Panel on the Nuclear Weapon Effects Program


The charter states the Panel will perform    the following.

        o Review NWE technology        to better understand its fundamental   elements
and unique aspects.

        o Consider opportunities for advancing NWE technology         and determine
the potential impact of such advances.

       o Assess the contribution    of ongoing DSWA activities to maintain and
advance NWE technology.

        o Examine the Department of Energy Science-Based Stockpile
Stewardship Program, especially the Accelerated Strategic Computing Initiative,
to understand how the new knowledge and tools resulting from the program can
be exploited to advance NWE technology.

         o Outline the main features of a program that ensures the long-term quality
and reliability of DOD NWE technology and incorporates new technology into
user-friendly tools for warfighters.

The charter states that the Panel should complete      its work, including a briefing
and individual reports, by November 1, 1996.

Contracting for the Advisory Panel. DSWA obtained the services for the
Panel by issuing Technical Instruction (TI) 96-21 under contract
DNAOOl-93-C-0138,       an omnibus SETA contract with Logicon RDA. The
Technical Monitor at DSWA approved TI 96-21 on March 10, 1996. The
contracting officer at DSWA approved the TJ on May 28, 1996. The TI
identified the specific work required, the performance schedule, and the reports
due from the contractor.    At the request of the Deputy Director, DSWA, the
language in the TI specifically directed Logicon Research and Development
Associates (Logicon RDA) to obtain the services of Panel Member A to chair
the Panel and to have Panel Member A:

        o prepare and deliver the final briefing and coordinate the preparation and
delivery of Panel member reports;

        o formulate the Panel charter and identify Panel membership;

         o select Panel members and deliver a brief rationale identifying the unique
qualities and expertise each member brings to the Panel;

        o plan, convene, and moderate Panel meetings;

       o participate in visits to obtain information   relevant to the DSWA NWE
Program;

                                       5
Advisory Panel on the Nuclear Weapon Effects Program


             o provide technical expertise on NWE involving aerospace                  vehicles and
      surface and underground     structures;

             o prepare reports on Panel meetings and visits; and

             o prepare and deliver progress briefings to DSWA.

      The TI also tasked Logicon RDA to ensure the Panel adhered to its charter and
      to provide general support for the operation and maintenance of the contract,
      including cost tracking and control. The estimated total level of effort was
      1,200 hours. The TI stated the work was within the general scope of the
      contract and that the cost of the effort would not increase the estimated contract
      cost.

      Justification for Sole-Source Procurement. DSWA officials prepared a
      justification and approval for other than full and open competition to obtain the
       services of the Panel from Logicon RDA under TI 96-2 1. The justification and
      approval was signed by the DSWA Deputy Director for Special Programs on
      May 9, 1996, but was not certified or approved by the contracting officer, the
      competition advocate, or the Director for Acquisition Management at DSWA.
      DSWA contracting officials stated that the justification and approval for the TI
      was not signed because the services of the Panel were within the general scope
      of the statement of work for SEXA contract DNAOOl-93-C-0138.

      The unapproved justification and approval stated:

                 Selection of Logicon RDA to provide the support for this critical study
                 is based on their unique experience. capabilities. and indepth resource
                 base provided by both on-line staff and consultive assets. Specifically.
                 Logicon RDA has demonstrated              exceptional    expertise and
                 responsiveness through development of broad based subcontractual
                 and consultive pools: maintenance of unequaled corporate personnel
                 with demonstrable experience in all aspects of agency responsibilities:
                 extraordinary close ties to the policy and technical communities with
                 which DNA works on a daily basis: and a continuous record of real-
                 time responsiveness to unanticipated and comples program support
                 requirements.

      The justification and approval also discussed the unique qualifications of Panel
      Member A to chair the Panel, but did not specify his status as either an
      employee of Logicon RDA or as an independent consultant.




                                                6
                       Advisory Panel on the Nuclear Weapon Effects Program


        DNAOOl-93-C-0138 Statement of Work. DSWA awarded SETA
contract DNAOOl-93-C-0138, valued at $47.7 million, on July 30, 1993. The
contract was a cost-plus-award-fee level-of-effort contract for professional
services to be provided during FYs 1994 through 1998. The statement of work
provided:
           The contractor shall supply support within all levels of the DNA
           organization for NWE and CWE (conventional weapons effects) and
           related or supporting RDT&E (research. development. test and
           evaluation); shall support DNA personnel as required in interactions
           with other government agencies and with other contractors. frequently
           on matters that may be considered proprietary or privileged by other
           contractors. In all activities under this contract, the contractor shall be
           required to strictly conform with the Organizational Conflict of
           Interest requirement.

The contract statement of work specified levels of effort (hours of work) for
particular categories of labor to be provided by the contractor and key personnel
that were considered essential to performance of the work. The contract also
specified that services of consultants “shall be at rates and for periods approved
in advance [emphasis added] by the contracting officer.” Performance of the
work under the contract was as directed by the issuance of written TIs defined
to include:

           (1) directions to the Contractor which suggest pursuit of
           certain lines of inquiry, shift work emphasis, fill in details or
           otherwise   serve to accomplish       the contractual     Statement     of
           Work; and

           (2) guidelines to the Contractor       which assist in
           interpretation of drawings, specifications or technical
           portions of the work description.

The contract also stated that “the contractor shall not proceed with the work
affected by the technical instruction unless and until the Contractor is notified
by the Contracting Officer that the technical instruction is within the scope of
the clause. ”

       Procurement Management Review of the Contract. On January 31,
1996, the Director, Defense Procurement issued a Report on the Procurement
Management Review (PMR) of DSWA that was conducted between July 10-28,
1995. The report stated the following in regard to SETA contract
DNAOOl-93-C-0138:
           ...The use of this contract, with its vast range of tasks, allows the
           incumbent to become virtually immune to competition. The fact that
           the Agency Deputy Director is the Award Fee officer underscores the
           increasing importance of this sizable contract. Not only does the size
           of the contract establish barriers to competition, but the myriad of
           tasks is unmanageable both from the standpoint of cost growth and
           contract management. It appears from the significant cost growth


                                          7
Advisory Panel on the Nuclear Weapon Effects Program


                 (from $46 million representing the awarded ceiling inclusive of basic
                 and options to a total approximate value of $74 million in the second
                 annual renewal option) that the current work exceeds the basic scope
                 thereby mandating a justification and approval be prepared for
                 subsequent out-of-scope efforts.. . .

      The PMR Report recommended that a justification and approval be prepared
      before entering into additional out-of-scope work under the contract and that in
      the future, several SETA support contracts that break the work down into
      manageable tasks be solicited from the technical community.

      In regard to the use by DSWA of the level-of-effort contract with TIs, the PMR
      Report stated this type of contract:
                 tends to use TIs to further definitize the broad scope of work without
                 creating a binding agreement between the contractor and the
                 Government .. . it is not always apparent that tasks were specifically
                 outlined in the basic scope of work so that only an “interpretation” was
                 needed at a later time.. . .

      The PMR Report recommended that the work under TIs be tied to the specific
      task set forth in the basic contract scope of work, and out-of-scope TIs be
      processed through modifications to the contract. The report also recommended
      that the contracting officer ensure that TIs are not a quasi-definitization
      methodology and that adequate controls are in place.

               Implementation of PMR Recommendations. DSWA contracting
      officials did not implement the PMR recommendations in the issuance of
      TI 96-2 1. The TI was not tied to a specific task set forth in Ehe basic contract
      and Panel Member A, whose specific effort was required, was not a key
      employee of Logicon RDA identified in the contract, Also, none of the other
      Panel members were employees of Logicon RDA. DSWA contracting officials
      did not approve the justification and approval and process as a contract
      modification because they considered the services of the Panel to be within
      scope of the broad statement of work for contract DNAOOl-93-C-0138.

              DSWA Legal Review. The DSWA contracting officer stated that the
      DSWA General Counsel verbally agreed it was appropriate to approve TI 96-21
      for the Panel and did not provide a written opinion on whether the TI was
      within scope of the underlying contract and required certain actions to avoid,
      neutralize, or mitigate conflicts of interest to comply with the organizational
      conflict of interest (OCI) provisions in the contract.

      Subcontracting for Panel Members. On August 1, 1996, more than three
      months after the Panel conducted its initial meeting, the DSWA contracting
      officer approved the request from Logicon RDA to subcontract for the Panel
      members. Logicon RDA awarded a consultant agreement for Panel Member A
      and subcontracts to five contractors for the other six Panel members. Logicon
      RDA acquired the services of Panel Members B, C, F, and G on separate
      subcontracts, and the services of Panel Members D and E on the same


                                               8
                        Advisory Panel on the Nuclear Weapon Effects Program


subcontract. As shown in Table 1, Logicon RDA authorized a total of
$184,641 ($107,999 in FY 1996 and $76,642 in FY 1997) for compensation
and other expenses for the members of the Panel.


             Table 1. Fundine Authorized for Each Panel Member
                            - (FY19!36-1997)


   Panel             Logicon RDA              FY 1996           FY 1997              TOtal
  Member             Subcontractor            Funding                               Funding

’ Member At                                 $ 18,188            $ 16,800        $34,988
  Member B               Titan                15,032              10,038          25,070
  Member C               Jaycor               14,830               9,948          24,778
  Members D & E          SAIC                 29,989              19.913          49,902
  Member F               ML1                  15,000              10,000          25,000
  Member G               MRC                  14.960               9.943          24.903

    Grand Total                             $107,999           !§ 76,642       $184,641


fServices procured under consulting agreement with member.


        Waiver of Organizational Conflict of Interest Clause. On August 7,
 1996, Logicon RDA requested that the DSWA contracting officer for contract
DNAOOl-93-C-0138 approve submission of nondisclosure forms by NWE
Advisory Panel members in lieu of requiring the full OCI clause to the
subcontracts for the Panel’s services. The nondisclosure form was a statement
signed by each member agreeing not to disclose any Government-privileged or
proprietary information (obtained as a member of the Panel) to anyone other
than Panel members present when such information was disclosed. The
members agreed in particular not to use information to give their companies or
any other company an unfair competitive advantage.

On August 20, 1996, the DSWA contracting officer requested the DSWA
General Counsel to review the proposed use of the nondisclosure form because
of the stringent OCI requirements in the contract. On the same day, the DSWA
General Counsel recommended that the contracting officer approve the
contractor’s request to use nondisclosure forms for two reasons.
           First. the Panel has been operating since June 17. 1996. on the theory
           that nondisclosure statements would suffice. It would be difficult to
           impose stricter controls at this point even if such action was fair.
           Second. the Panel is taking a far too global look at DSWA to
           reasonably expect the members to acquire much “proprietary” info.
           government or commercial.. . .




                                        9
Advisory Panel on the Nuclear Weapon Effects Program


      On August 26, 1996, the contracting officer informed Logicon RDA that the
      submission of nondisclosure certifications by Panel members was acceptable in
      lieu of requiring the OCI clause. Like the consent to subcontract for the
      services, the contracting officer approved the waiver about 4 months after the
      initial Panel meeting. Logicon RDA did not bring the issue of the OCI clause
      to the attention of the contracting officer in a timely manner. The FAR
      Section 9.504 requires contracting officers to identify and assess potential OCIs
      as early as possible and avoid, neutralize, or mitigate significant potential
      conflicts of interest before contract award. In addition, FAR Section 9.505-3,
      “Providing Technical Evaluation or Advisory and Assistance Services,” states
      that contracts involving advisory and assistance services should not be awarded
      to a contractor that would evaluate or advise the Government concerning its own
      products or activities, or those of a competitor, without proper safeguards to
      ensure objectivity and protect the Government’s interests. The DSWA
      contracting officer did not comply with these policies.




               Scientific Advisory Group on Effects. From 1992 to 1993, DSWA
      had an advisory panel called the Scientific Advisory Group on Effects (SAGE)
      that operated in accordance with the Federal Advisory and Committee Act. The
      mission of the SAGE was to review and evaluate long-range plans for
      developing and improving NWE data for DSWA. DSWA terminated the SAGE
      in 1993, at the direction of the Director for Administration and Management,
      OSD, as part of an Office of Management and Budget initiative to reduce the
      number of Federal Advisory Committees. In the October 20, 1993, letter that
      terminated the SAGE, the Director, Administration and Management stated:
                 Alternative means should be explored to obtain the advice performed
                 by the SAGE. Given the nature of the efforts undertaken by the
                 SAGE, it would seem appropriate to enlist the services of the Defense
                 Science Board for these purposes. We have discussed this possibility
                 with the Executive Director of the DSB and he believes that such an
                 arrangement is feasible.

      DSWA estimated that the total cost for the SAGE for FY 1993 was $45,500,
      which included personnel compensation for both the non-Federal and Federal
      members as well as travel and per diem. The SAGE conducted 3day meetings
      on two occasions.

      DSWA Consultation with the DSB. DSWA officials did not consult the DSB,
      an approved Federal Advisory Committee, prior to procuring the advisory and
      assistance services to study the DSWA NWE Program. The DSWA Deputy
      Director stated that the DSB membership was not suitable for such a study and
      the DSB had not typically been used for studies at this level of detail. Panel
      Member A and the other Panel members were “handpicked” because they

                                              10
                      Advisory Panel on the Nuclear Weapon Effects Program


represented over 200 years of hands-on experience in NWE. The Deputy
Director stated that the NWE Advisory Panel was not established to replace the
SAGE.

DSB Capability and Expertise. The DSB conducts studies on a wide range of
Defense and scientific matters. Its membership includes subject matter experts
and consultants from industry, academia, and Government who have extensive
experience in the fields of science and technology. After reviewing the charter
of the DSWA NWE Advisory Panel, the DSB Executive Director stated that if
DSWA officials had approached him with a request, he would have taken the
request to the Chairman of the DSB to determine whether the DSB had, or
could obtain, the expertise to perform the study. He further stated that the DSB
can obtain outside consultants and draw on expertise within the Government to
assist in performing studies.

In 1993, the DSB chartered a Task Force to conduct a study of all major
scientific and technical projects being conducted or planned by DSWA and the
value of, and technical competence of, DSWA in accomplishing the projects.
The May 3, 1993, Task Force report demonstrates that the DSB could have
chartered a Task Force to perform the study conducted by the Panel.

Differences between the Advisory Panel and a Federal Advisory Committee.
The Panel operated under less stringent standards than a Federal advisory
committee.

       Scheduling and Format of Meetings. The Federal Advisory
Committee Management Regulations require that a notice of each meeting of a
Federal advisory committee be published in the Federal Register at least 15 days
before the meeting; and that written determinations be made for each closed
meeting. DSWA did not publish notices for any of the nine meetings of the
Panel. The Panel members unilaterally decided to close all meetings.

       Financial Diilosure Statements. DOD Directive 5500.7-R, “Joint
Ethics Regulation,” August 1993, requires DOD-sponsored advisory committee
members to submit financial disclosure statements before assumption of duties.
DSWA did not require the members of the Panel to submit financial disclosure
statements to identify potential conflicts of interest.

       Panel Membership. The Federal Advisory Committee Management
Regulations require that the agency describe, in the proposed charter for a
Federal advisory committee, how it will attain a fairly balanced membership.
The agency must consider a cross-section of those directly affected, interested,




                                    11
Advisory Panel on the Nuclear Weapon Effects Program


      and qualified to perform the functions of the committee. DOD Directive 5 105.4
      requires that the Secretary of Defense, the Deputy Secretary, or their designee
      approve the membership of advisory committees in DOD. However, Member A
      selected the other members of the NWE Advisory Panel.

               Compensation of Panel Members. The Federal Advisory Committee
      Act; the Federal Advisory Committee Management Regulations; and OSD
      Administrative Instruction No. 2, “Employment of Experts and Consultants,”
      limit the pay of members of Federal advisory committees to the daily equivalent
      of the maximum rate for a GS-15 unless a higher rate of pay is mandated by
      statute, or the head of the agency has personally determined that a higher rate of
      pay is justified and necessary. For 1996, the maximum rate of pay for a GS-15
      was $345.36 per day ($43.17 per hour), which was the pay authorized for DSB
      members. Table 2 shows the compensation received by members of the Panel.


                    Table 2. Compensation of Advisory Panel Members
                               through December 10, 1997


                                                                           Total
          Panel           Hours        Hourly           Total              Other        costs
         Member           Worked        Rate         Comwnsation l       Exwnsesz      IllCUd


        Member    A         342          $75           $25,650             $ 6,848     $ 32,498
        Member    C          54           115            6,210              18,532       24,742
        Member    D & E     390            55           21,450              27,564       49,014
        Member    F          80            89            7,120              12,841       19,961
        Member    G         153            49            7,497              15.384       22.881

          Total                                        $67,927            $81,169     $149,096

      I Includes actual compensation for 1996 and Projected Compensation for 1997 add-on effort.
       ! Other Expenses include travel, over-head, and general and administrative costs.



      Six of the seven members (Members A, C, D, E, F, and G) of the Panel
      received compensation in excess of the maximum rate for a GS- 15. The
      six members received about $23,937 more than they would have received at the
      GS-15 rate of compensation. In addition, Logicon RDA received $127,978 for
      issuing and administering the subcontracts and providing executive secretarial
      support to the Panel.




                                                12
                         Advisory Panel on the Nuclear Weapon Effects Program


Accomplishments        of the NWE Advisory Panel

     Meetings of the Panel. According to records maintained by Logicon RDA, the
     Panel had nine meetings between April 1996 and December 1996. The Panel
     provided briefings on preliminary study results to the Director of Operations,
     DSWA, on November 8, 1996, and the Deputy Director, DSWA, on
     November 13, 1996. The Panel delivered the final report to the DSWA Deputy
     Director on March 7, 1997.

    Content of the Final Report. The final report was a 7 1-page, unclassified,
    annotated briefing, with additional appendixes that included the Panel charter
    and scenarios considered by the Panel. The report contained the following
    conclusions:

            o Major changes are needed to preserve NWE technology before it is
    lost.
          o DSWA is the only agency charged with the responsibility to preserve
    DOD nuclear effects technology.

           o The DSWA NWE Program should grow to about $50 million a year
    ($250 million over the next 5 years), excluding computational resources,
    maintenance and construction of test facilities, or the ongoing testable hardware
    program.

           o Effective nuclear deterrence and defense require safe, reliable
    warheads, effective delivery systems, and knowledge of NWE.

            o Present threats involve terrorism, emerging proliferants, and, over the
    long term, potential peer adversaries.

    A March 7, 1997 letter transmitting the report to the DSWA Deputy Director
    stated that all members of the Panel approved the report, with the exception of
    one member who was unavailable for the last two meetings.

    Overlap with DSB Report. The 1993 DSB Task Force Report on DSWA
    reached similar conclusions. The Task Force concluded:

           o NWE phenomenology and simulation were DSWA core nuclear
    competencies, which the DOD must retain indefinitely.

           o DSWA core competencies can make unique contributions to needed
    conventional force improvements provided that DSWA is appropriately staffed.

           o The Military Services were not fully maintaining nuclear-related skills
    to meet future needs.



                                        13
Advisory Panel on the Nuclear Weapon Effects Program


             o The technical strengths of the Department of Energy laboratories will
      not substitute for maintaining nuclear competence in DOD.

             o Threats have changed since the breakup of the former Soviet Union.


Conclusions

      The allegation of conflicts of interest among the NWE Panel members was
      partially substantiated. The contracting officer failed to take timely action to
      develop a conflict-avoidance and mitigation plan for the work to be performed
      by the Panel. Also, the manner in which DSWA contracted for the Panel
      through Logicon RDA did not ensure that DOD received the best value for the
      $277,074 in costs ($149,096 in compensation and related expenses and
      $127,978 in expenses for Logicon RDA to issue and administer the contracts)
      incurred by DSWA for the Panel.


Management Comments on the Finding and Audit Response

      DSWA Comments on Conflicts of Interest among NWE Panel Members.
      DSWA agreed that the contracting officer waived the requirement for the OCI
      clause in the Logicon RDA contract to flow down to the subcontractors who
      employed members of the Panel, and to require Panel members to disclose their
      financial interests. DSWA further agreed that the employment of the Panel
      members by DSWA contractors created potential conflicts of interest.
      However, the finding did not include the fact that members of the Nuclear
      Weapon Effects Panel were required to sign statements by which they agreed to:
      (1) use the information they received solely for the Panel; (2) not disclose the
      information to any other party; and (3) not use the information to obtain a
      competitive advantage. DSWA stated that this form of restriction is the normal
      means by which to ensure that potential conflicts of interest do not become
      actual conflicts of interest. There is no evidence that any of the participants
      violated the terms of these agreements. DSWA recommended that the finding
      be amended to reflect this preventive action because there was no evidence of
      violation on the part of any of the participants.

      Audit Response. The finding discusses the conditions imposed by the
      nondisclosure agreement on the Panel members. A nondisclosure agreement is
      used to protect proprietary information from improper disclosure and use of the
      information for any purpose other than for which it is intended. It should not
      be considered the only remedy to potential OCI problems. Prior to the issuance
      of TI 96-21 on March 10, 1996, the contracting officer did not address the
      potential for conflicts of interest and develop a conflict-avoidance or mitigation
      plan, even though he should have foreseen the potential conflicts. It was clear
      that the Panel would not consist of Logicon RDA employees and the
      performance of the Panel members would probably be inconsistent with
                                          14
                     Advisory Panel on the Nuclear Weapon Effects Program


performance of other contracts by the Panel members and their employing
companies. However, there is no evidence that DSWA contracting officer, the
head of the contracting activity, or the general counsel addressed the conflict of
.interest issue until Logicon RDA requested the waiver of the full OCI clause
and the use of the nondisclosure statements on August 7, 1996. Logicon RDA
should have acknowledged and addressed the potential for an OCI with the
DSWA contracting officer prior to acceptance of the TI because it was obvious
from the outset that potential conflicts would arise during contract performance.

We do not agree that there is a valid basis for concluding that DSWA has
effectively mitigated or neutralized the OCIs simply because no violations of the
nondisclosure agreements have come to the attention of DSWA or that there is
no longer a problem.

DSWA Comments       on Panel Member Access to Proprietary       Information.
DSWA did not agree with the audit conclusion that Panel members “may have
been in a position to obtain information of new technologies that could provide
them a competitive advantage. n The finding ignores two important facts. First,
the Panel members were selected based upon their expertise in their respective
fields. DSWA was looking to each of these experts to provide information
regarding the opportunities for advancing NWE effects. Second, the finding
disregards the restrictions imposed upon the NWE members by their agreements
not to misuse any information acquired. DSWA recommends that the finding
be amended to reflect the restrictions imposed and the fact that there is no
evidence that any of the Panel members violated their agreements.

Audit Response. The finding does not dispute that the Panel members were
knowledgeable in aspects of NWE and does state the collection of nondisclosure
agreements were collected from the Panel members. However, neither DSWA
nor the contractor required the Panel members to make full disclosures to the
following questions, which bear on whether the Panel members had a possible
conflict of interest with respect to the ability to render impartial, technically
sound, and objective advice, or whether they obtained an unfair competitive
advantage:

       l   Could you (or your organization) in either your private or
           Government business pursuits utilize information acquired    in the
           performance of the proposed work, such as data generated      under the
           contract? Information concerning DSWA and Department         of Energy
           plans and programs ? Confidential and proprietary data of    others?

       l   Do you (or your organization) have any involvement with or interest
           (direct or indirect) in technologies which are, or may be, subjects of
           the contract, or which may be substituted for such technologies?




                                    15
Advisory Panel on the Nuclear Weapon Effects Program


             l   Under the proposed work, will you evaluate or inspect your own
                 services or products, or the services or products of any other entity
                 that has a relationship (e.g., client, organizational, fmancial, or
                 other) with you (or your organization)? Does it include evaluating or
                 inspecting a competitor’s goods and services?

      For future contracts for advisory services, DSWA should do a better job of
      mitigating potential conflicts of interest.

      DSWA Comments on the PMR Findings on the SETA Contract. The PMR
      recommended that a sole-source justification and approval be prepared before
      entering into “out-of-scope” work under the contract. The auditors stated that
      no such justification and approval had been formally approved in this case. The
      statement of work in the prime contract provides, in pertinent part, that “IT]he
      contractor shall supply support within all levels of the DNA organization for
      NWE and CWE (conventional weapons effects) and related or supporting
      RDT&E (research, development, test and evaluation).” Not surprisingly, both
      the General Counsel and the Contracting Officer determined the work of the
      NWE Panel was within the scope of the contract. Therefore, the discussion
      regarding the failure to have a formally approved justification and approval is
      true, but irrelevant.

      Audit Response. The discussion of the results of the PMR is relevant. As
      discussed in the finding, the DSWA did not tie TI 96-21 to a specific task set
      forth in the basic contract, as recommended by the PMR report. The PMR
      report also noted that the broad statement of work made the contract “virtually
      immune to competition. n

      DSWA Comments on Performance of Personal Services. The auditors note
      the requirement to obtain a written opinion from legal counsel “in doubtful
      cases” and noted that no written opinion was requested in this case. However,
      there is no evidence whatsoever that this contract involved personal services.
      During the informal resolution meeting with the authors, DSWA invited them to
      present whatever basis they had for the assumption that the contract involved
      personal services. The only evidence they cited was that the chairman of the
      NWE Panel was identified by name in the technical instruction. That being
      true, it is difficult to see how this could be characterized as a “doubtful case.”
      Once again, the discussion is true, but irrelevant.

      Audit Response. Based on the comments, we deleted the reference to the FAR
      requirement that the contracting officer document the opinion of legal counsel,
      if doubt exists as to whether a proposed contract is for personal or nonpersonal
      services. However, we continue to believe that the legal review of the TI
      should have been documented.




                                          16
                          Advisory Panel on the Nuclear WeaponEffectsProgram


    DSWA Comments on FACA Issue. About 20 to 25 percent of the report is
    devoted to a discussion of the qualifications of the Defense Science Board (as an
    “approved FACA”) and of actions which would have been required under the
    FACA, had the NWE Panel been a committee subject to the Federal Advisory
    Committee Act. However, members of the NWE Panel each had a different
    area of subject-matter expertise and the purpose of the NWE Panel was to gain
    the benefit of that expertise on a subject-area by subject-area basis. There was
    never an intent to obtain a collegial opinion and no evidence that the NWE
    Panel functioned as a committee subject to the Federal Advisory Committee
    Act. Once again, the discussion appears to be true, but irrelevant.

    Audit Response. The NWE Panel was not subject to the Federal Advisory
    Committee Act. However, the discussion is relevant because DSWA could
    have sought the assistance of the Defense Science Board, in lieu of using the
    SETA contract to obtain the services of the NWE Panel. Further, the
    discussion is relevant in order to draw a conclusion as to whether DOD received
    the best value for the $277,074 in costs incurred by DSWA for the Panel.
    Regarding the role of the Panel members, the content of the Panel’s final report
    includes conclusions that appear to represent a collegial opinion. The March 7,
    1997, letter transmitting the report to the DSWA Deputy Director stated that all
    members of the Panel approved the report, with the exception of one member
    who was unavailable for the last two meetings.


Recommendations, Management Comments, and Audit
Response

    Revised Recommendation. After reviewing management comments and
    considering the fact that the advisory panel completed its work, we revised
    Recommendation c. to omit the requirement for the prime contractor to amend
    the consulting agreement and subcontracts requiring members of the NWE Panel
    to make full disclosures of all actual and potential conflicting financial interests
    applicable to their work on the Panel. Also, we deleted Recommendation d.
    that would have required contracting officers to determine if Panel members had
    gained an unfair competitive advantage on future contracts.

    We recommend that the Director, Defense Special Weapons Agency:

          a. Implement the recommendations in the January 1996
    Procurement Management Review Report relating to contract
    DNAOOl-93-C-0138.

    DSWA Comments. DSWA concurred, stating that the recommendations in the
    January 1996 report have been implemented. No justification and approval was
    required because the work of the NWE Panel was within the scope of the
    contract.


                                         17
Advisory Panel on the Nuclear Weapon Effects Program


      Audit Response. The PMR report recommended that the work under TIs be
      tied to the specific task set forth in the basic contract scope of work, and out-of-
      scope TIs be processed through modifications to the contract. DSWA did not
      tie TI 9621 for the NWE Panel to a specific task set forth in the basic contract.
      The comments are not fully responsive because they do not state what
      procedures have been established or planned to require that each future TI
      issued under the contract is tied to a specific task set forth in the basic contract
      statement of work. Accordingly, we request that the Director, DSWA, provide
      additional comments on the recommendation.

             b. Initiate action to replace contract DNAOOl-93-C-0138 with task
      order contracts in FY 1998.

      DSWA Comments. DSWA nonconcurred, stating that the consolidation of
      DSWA with other DOD elements into a new agency, tentatively named the
      Defense Threat Reduction Agency, on October 1, 1998, will necessitate a
      review of aI1 SETA contracts of the several joining elements. Contract
      DNAOOl-93-C-0138 will be replaced by a new contract. However, the type and
      the precise terms of the contract will be determined after analysis of the
      requirements.

      Audit Response. The Federal Acquisition Streamlining Act of 1994
      encourages agencies to award multiple, overlapping task order contracts for
      advisory and assistance services under a single solicitation, whenever feasible.
      Advisory and assistance services are defined to include the engineering and
      technical and other support services that have been obtained under the SEPIA
      contract. The award of a single replacement contract requires a determination
      that the services required are unique and so specialized that it is not practical to
      award more than one contract. Otherwise, the solicitation must provide for a
      multipIe award. We request that the Director, DSWA, provide additional
      comments on the recommendation that clarify DSWA’s intent to award one or
      multiple task order contracts to replace DNAOOl-93-C-0138.

             c. Require full financial and potential conflict of interest disclosures
      from any advisory panel members on future consulting agreements and
      contracts for advisory services.

      DSWA Comments. DSWA nonconcurred with the draft report
      recommendation requiring Logicon RDA to modify the consulting agreement
      and subcontracts to require that the Panel members make full disclosure of ail
      actual and potential conflicting financial interests applicable to their work on the
      Panel. DSWA stated that there is no legal basis to change the terms of a
      contract after the performance of a contract has been completed. DSWA had no
      objection to full disclosure and will require such disclosure in the future. In
      view of the NWE Panel members’ agreements not to disclose or use for
      competitive advantage any information acquired during the course of the Panel’s
      existence, no action is necessary.

      Audit Response. We modified the recommendation after reviewing DSWA
      comments. We accept the DSWA response to require full disclosure on future
                                            18
                    Advisory Panel on the Nuclear Weapon Effects Program


consulting agreements and contracts for advisory services. Since the
subcontract was completed 15 months ago, we agree it is probably not beneficial
to go back now and modify the consulting agreement and subcontract.




                                   19
Part II - Additional   Information
Appendix A. Audit Process


    We reviewed documents dated from October 1993 through December           1997. To
    accomplish our objective, we:

           o reviewed the DOD Hotline allegations to determine their validity;

             o examined the portions of contract DNA00 I -93-C-O 138 that pertained to
    the establishment of the NWE Panel;

            o determined DSWA compliance with statutory and regulatory
    requirements for the procurement of advisory and assistance services;

             o incorporated Office of the General Counsel, DOD comments     concerning
    the finding in Part I of this report; and

           o discussed issues related to the Panel with personnel from the Ofice of
    the Director, Administration   and Management; DSWA; the Defense Science
    Board; and the Defense Contract Audit Agency resident auditor at Logicon RDA.

    GAO High Risk Area. The General Accounting Office (GAO) has identified
    several high risk areas in the Department of Defense. This report provides
    coverage of the Defense Contract Management high risk area.



Methodology

    Audit Period, Dates, and Standards. We conducted this program audit from
    December 1996 through February 1998 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD, and accordingly included such tests of management
    controls as we deemed necessary. We did not rely on computer-processed    data
    to support our finding and recommendations.

    Contacts During the Audit. We visited or contacted contractors and
    individuals and organizations within the DOD. Further details are available
    upon request.




                                        22
                                                        Appendix A. Audit Process


Management      Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended to evaluate the adequacy of the controls.

    Scope and Review of Management Control Program. We reviewed the
    management controls DSWA used to establish the Panel. In addition, we
    evaluated the procedures DSWA followed to identify, evaluate and resolve
    potential conflicts of interest in the award of contracts.

    Adequacy of DSWA Management Controls. We identified a material
    weakness in DSWA management controls, as defined by DOD
    Directive 5010.38. Specifically, agency managers failed to take timely action to
    develop a conflict-avoidance and mitigation plan for work to be performed by
    contract, as required by FAR Subpart 9.5. Implementation of recommendations
    in this report will correct the material management control weakness and
    improve the identification, evaluation, and resolution of potential conflicts of
    interest in future contracts.

    Adequacy of Management’s Self-Evaluation.      The DSWA self-evaluation
    prepared in November 1996, did not identify the management control weakness
    identified during the audit.

    Management Comments on the Material Control Weakness. DSWA
    nonconcurred, stating that it considers the nondisclosure/non-use agreements
    signed by the NWE Panel members to be an effective response to the potential
    conflicts of interests associated with the NWE Program effort.

    Audit Response. As discussed previously in the report, significant time passed
    after the issuance of TI 96-21 before the contractor informed the contracting
    officer of the need for the Panel members to submit nondisclosure statements.
    Thus, DSWA had not established effective procedures to ensure that the
    contracting officer identified potential OCI problems before issuing the TI to the
    contractor, verified the applicability of the contractor’s OCI implementation
    plan to potential OCI problems, and recommended a course of action for
    avoiding, neutralizing, or mitigating potential OCI problems not covered by
    previous contractor OCI disclosures or the implementation plan. A copy of the
    report will be provided to the Under Secretary of Defense (Acquisition and
    Technology) and senior officials responsible for DSWA management controls.




                                        23
Appendix B.           Summary of Prior Coverage

   Within the last 5 years, the General Accounting Office did not issue any reports
   concerning DSWA that directly related to the audit objective.

   Inspector General, DOD, Report No. 94-174, “Organizational and
   Consultant Conflicts of Interest,” August 10, 1994. The report stated that
   DOD contracting officers (including those at DSWA) did not include one or both
   of the conflict of interest provisions in 33 of 77 contract solicitations and that
   contracting officers did not include a clause restricting the activities of
   contractors in eight contracts that involved potential conflicts of interest. The
   report recommended:

           o revisions to the FAR requiring offerers to submit organizational
   conflict of interest certificates;

           o guidance be issued requiring contracting officers to obtain
   organizational conflict of interest certificates for applicable contracts;

           o internal controls be established ensuring contractor compliance with
   organizational conflict of interest certification requirements; and

          o eight contracts be modified to include clauses restricting contractors
   from bidding on future contracts.

   The Director, Defense Procurement, disagreed with the recommendation to
   revise the FAR, but issued a memorandum that required the Military
   Departments and Defense agencies to include conflict of interest requirements in
   procurement management reviews. The Army, Navy, Air Force, and DSWA
   generally concurred with the other recommendations.

   Director of Defense Procurement, “Procurement Management Review of
   Defense Nuclear Agency,” January 31, 1996. The PMR concluded that the
   size of the SETA contract with Logicon RDA appeared to restrict competition
   and was administratively unmanageable from a cost-growth standpoint. The
   report recommended that DSWA prepare a justification and approval before
   entering into additional out-of-scope work under the SETA contract, and in the
   future solicit SETA support contracts from the technical community that are
   capable of breaking the work down into manageable tasks. In October 1996,
   DSWA agreed to implement the recommendations.




                                         24
Appendix C. Allegations Made to the Defense
Hotline and Audit Results

   The allegations and a summary of the audit results pertaining to each allegation
   are provided below.

    Allegation 1. There were conflicts of interest among NWE Panel members.

   Audit Results. The allegation was partially substantiated. Six of the seven
   members of the NWE Panel were employees of contractors who have current,
   and are likely to have future, DSWA contracts thus creating potential conflicts
   of interest. Also, the DSWA contracting officer waived the requirement for the
   OCI clause in the Logicon RDA contract to the subcontractors and authorized
   the members of the Panel to submit only nondisclosure forms rather than
   disclose all financial interests. Therefore, the extent of potential conflicts of
   interest was undeterminable.

   Allegation 2. There was collusion between certain DOD contractors and the
   NWE Advisory Panel at DSWA.

   Audit Results. The allegation was not substantiated. The services of six of the
   seven Panel members were acquired by Logicon RDA subcontracting with five
   contractors which gave the appearance of collusion. However, we found no
   evidence of collusion among contractors participating on the NWE Panel. The
   NWE Panel did not make any recommendations to DSWA regarding specific
   contract awards.

   Allegation 3. The NWE Advisory Panel members awarded contracts to
   companies in which they had a vested financial interest.

   Audit Results. The allegation was not substantiated.    The NWE Panel had no
   authority to make contract awards.

   Allegation 4. The NWE Advisory Panel has been advising the DSWA on
   contract issues such as which items or services to purchase, and from which
   source.

   Audit Results. The allegation was not substantiated. We found no evidence
   that the NWE Panel advised the DSWA on specific purchases or contract
   awards for the NWE Program.

   Allegation 5. The Panel members had frequent meetings with senior DSWA
   officials and, as a result, were in a unique position to learn of new technology
   and processes.

   Audit Results. The allegation was partially substantiated. The members of the
   NWE Panel had numerous contacts with senior DSWA officials to discuss
   opportunities for advancing NWE technology. Therefore, NWE Panel members
                                    25
Appendix C. Allegations Made to the Defense Hotline and Audit Results


      may have been in a position to obtain knowledge of new technologies that could
      provide them a competitive advantage if DSWA solicits bids for future contracts
      pertaining to the new NWJZtechnology initiatives. The audit did not determine
      the extent of the knowledge that the Panel members gained regarding new
      technology and processes as a result of participating on the Panel.

      Allegation 6. The Panel members obtained funding from DSWA to research
      emerging technologies and provided this information to their respective
      companies. The information is then used by those companies to begin work on
      specific new technologies so the companies can be selected if DSWA awards
      sole-source contracts.

      Audit Results. The allegation was not substantiated. The audit did not
      determine the extent of the knowledge that Panel members gained regarding
      new technology and processes as a result of participating on the Panel. Also,
      we found no indications of any violations of the nondisclosure agreement signed
      by each Panel member.




                                         26
Appendix D. Acquiring Services by Contract

   Personal Services Contract. A personal services contract is a contract that by
   its express terms, or as administered, makes the contractor personnel appear, in
   effect, as Government employees. Consequently, a personal services contract is
   so like an employment contract that it runs counter to the principle that the
   Government should obtain its employees by direct hire, under applicable civil
   service laws. The FAR prohibits the award of personal services contracts by an
   agency unless specifically authorized by Congress.

           Non-Personal Services Contract. A non-personal services contract is a
   contract under which the personnel rendering the services are not subject, either
   by the contract’s terms or by the manner of its administration, to the supervision
   and control usually prevailing in relationships between the Government and its
   employees. Non-personal services contracts are proper ‘under general
   contracting authority.

           Advisory and Assistance Services. Advisory and assistance services
   are services provided under contract by nongovernmental sources to support or
   improve organizational policy development, decision-making, management and
   administration, program and/or project management and administration, or
   research and development activities. Categories of advisory and assistance
   services are management and professional support services; studies, analyses
   and evaluations; and engineering and technical services.

          Contracting Officer Responsibilities.    The contracting officer is
   responsible for ensuring that a proposed contract for services is proper.
   FAR 37.103 states that the contracting officer will:

          o determine whether the proposed service contract is for a personal or
   nonpersonal services contract;

           o in doubtful cases, obtain the review of legal counsel; and

           o document the file with (i) the opinion of legal counsel, if any, (ii) a
   memorandum of the facts and rationale supporting the conclusion that the
   contract does not violate the general prohibition on the award of personal
   services contracts, and (iii) any further documentation that the contracting
   agency may require.

   Contracting officers are also required by FAR 9.504 to:

           o analyze planned acquisitions as early as possible in order to avoid,
   neutralize, or mitigate significant potential conflicts of interest before contract
   award;

          o evaluate potential conflicts of interest as early as possible; and

                                        27
Appendix D. Acquiring Services by Contract


              o develop any contract clause (restrictive clause) to restrict a
      contractor/contractors from bidding on certain future contracts and subcontracts
      that may involve potential conflicts of interest.

      Federal Advisory Committees. The Federal Advisory Committee Act (Public
      Law 92-463 found at 5 U.S. C., Appendix 2) authorizes Federal agencies to
      establish and contract for advisory committees. The Federal Advisory
      Committee Act is implemented by Office of Management and Budget Circular
      No. A-135, “Management of Federal Advisory Committees, ” October 5, 1994;
      the General Services Administration Federal Advisory Committee Management
      Regulations (4 1 CFR 10 l-6); and DOD Directive 5 105.4, “Department of
      Defense Federal Advisory Committee Program, ” September 5, 1989.

      Defense Science Board. The DSB is a non-statutory Federal advisory
      committee established to provide independent advice to the Secretary of Defense
      and other senior DOD managers on scientific, technical, manufacturing, and
      other matters of special interest. The DSB has 30 members; the chairman is
      appointed by the Secretary of Defense and the vice-chairman and members are
      appointed by the Under Secretary of Defense for Acquisition and Technology.
      Membership selection for the DSB is based on expertise in science, technology,
      manufacturing, management, and military operations. The Executive Director
      of the DSB is a DOD employee, who ensures observance of conflict of interest
      requirements and is responsible for preparation of all documentation required by
      the Federal Advisory Committee Act.




                                          28
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Procurement
   Chairman, Defense Science Board
   Assistant to the Secretary of Defense (Nuclear, Chemical and Biological Defense
       Programs)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public Affairs)
Director, Administration and Management


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)


Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Special Weapons Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   AHairs Division,
   General Accounting Office




                                            29
Appendix E. Report Distribution


Non-Defense Federal Organizations and Individuals (Cont’d)
Chairman and ranking minority member of each of the following congressional   committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental AfTairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International AfIairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                           30
Part III - Management   Comments
Defense Special Weapons Agency Comments



                                    -8eKWw-ponr*gmy
                                           6801 Talegraph Road
                                     Alexandria. Virginia 22310-3398




     MEMORANDUM          FOR DEPARTMENT          OF   DEFENSE INSPECTORGENERAL

     SUBJECT:       Defense Special Weapons Agency Advisory      Panel on Nuclear Weapons Effects
                    Panel Report, Project No. 7CH-8005



              The Defense Special Weapons Agency (DSWA) appreciates the effort of the DoDlG in
     preparing this report, as well as the opportunity to provide our tcsponsc to if.

              Unlike similar reports generated by Hotline allegations, we found this report to he rather
     confusing and in several cases. irrelevant     We expected that these issues had been resolved
     during the meeting of our subject-matter     experts and the authors of the repon had allowed for the
     necessary exchange of information and that the appropriate changes would be made. This,
     however, did not prove true. Therefore. the attached response prepared by our legal counsel
     affirms our non-concurrence     and addresses the specifics and rationale for such.

             Please address any questions   or comments    to CAPT Philip H. Crowell. DSWA inspector
      Genera) at (703)325-7096.




                                                    Major Gneral,    USAF
                                                    Director

      Attachments
      as stated




                                                      32
                                          Defense Special Weapons Agency Comments




                DEFENSE SPECIAL WEAPONS AGENCY RESPONSE                         TO
                      DRAFT OF A PROPOSED AUDIT REPORT

                      ‘Defense   Special Weapons Agency Advisory     Panel on
                                 Nuclear Weapon E5ects Program”



         This memorandum responds to your memorandum dated February 9. 1998, in
which you requested comments on the subject drawl report. berelnater referred to as
“report,” tbr~ conform to the requirements ofDoD Directive 7650.3. Speci6csUy. you
requened concurrence or nonconcmrence        with each applicable finding, actions taken or
planned in response to agned-upon     recomtnardations,  and completion dates for the
actions. You further requested speci6c reeaons for any nonconcurrence       wd proposed
ahatnative actions. if appropriate, and ootcd that we must comment on the material
control weakness discussed in Appendix A to the report.

         While we have benefrted greatly I?om previous reports from the Department of
Defense Inspector General and normaUy have no diajcuky in responding to drafts of such
reports, &is draft is somewhat contitsing. The “tindigs” of the repott may be io
Append& C, Allegations Made to the Defense Ho&e and Audit Results, or mry be
encompassed in the text oftbe report. In the iotereat of making a complete response. we
will address both tbe “Audit Results” and the text of the report.

         Statig with the “Audit Rest&s,” six aUcgations were made regarding the Nuclear
Weapons EfFxts Panel (NWEP). Four were fouud to be uusubslantiated       in their entirety
We agree with those 6ndiogs. Two of the albzgations were found IO be partially
substantiated and are discussed beIow.

         Allegation   1. There were confIicts ofinterest   among NWE Panel members

         DSWA Comments.           The auditors concluded chat the allegation was partially
substaotiated  bccauae six of the seven members of the NWEP were employees of
contractors who have currant aad are likely to have fi~turc DSWA cootracts. thus creating
potential conflicts of interest. Tbc auditors flier  found that the DSWA contracting
ofI& waived the requirement for the organizatiooal conf.Iia of interest clause in the
Lo&on RDA contract to dew down to the nubcootradors who employed the members of
the panel and did not require the members to disclox all of their financial interests. We
agree with both of these tindings and tbe Bet that the NWEP members’ employment by
DSWA contraaors created m              codicts of intcrest. However, tbc auditors did OOI
include in the finding the f&t that DSWA required the maubers of the NWEP to sign
statements in wticb they agreed (I) to use the infomation they rrcelvcd solely for the
purpose ofthe NWEP. (2) not to disclosethe infomation to any other party (including
their employer), and (3) oat to use the infhmatioo to obtain any competitive advantage.
This form of restriction is the normal means by which to ensure that potential conflicts of
interest do not become actual contlicts of ‘mterest. Tberc is no evidence that any of the




                                                33
               Defense Special Weapons Agency Comments




Final Report
 Reference




                          participants violated the terms of tbesc agreements, DSWA recommends that the finding
                          be ammded to reflect the preventive action taken by DSWA rod rbe fact that there is no
                          evidence of violation on the part of any of the participants.

                                   Alfegatioe 5. The Panel members bad f?equent meetings witb senior DSWA
                          officials and, as a re.Q$.k, were in A UtdqUC pOtitiO0 10 le~m whA1 WAS new in teChnOlOgy
                          and process.

                                     DSWA Comments. The auditors found that members of the NWEP bad
                          numerous contacts with %tuOr DSWA of%als to discuss opponunilies for advrncing
                          NWE technology. From this they concluded Ihat members “may have been in a position
                          to obtain knowledge ofnew technologies that could provide them A competitive
                          advantage.”    While we do not disagree, lhe hding ignores two important facts. First. the
                          NWEP members were selected based upon && expertise in their relgective fields
                          DSWA was looking to each of these experts to inform us regarding the opportunities     for
                          advaocing NWE effects. Second, and more important, the fir&g disregards the
                          restrictions unposed upon the NWE members by their agreements not to misuse any
                           information acquired. DSWA recommends that the &ding be amended to reflect the
                           restrictions imposed and the facl lhnt there is no evidence that any of the NWEP members
                          violated their agreements.

                                  Based upon these findings, tbc autbors oftbc draft repon make two
                           recommendations:

                                   Recommendation       E. Require Logicon RDA to modify the cotuulting agreement
 Rzviszd                   and subcontracts  to require that the members of the Nuclear Weapon Eficcts Advisor)
                           Panel make full disclosure of Al1actual and potential cooflictiog inrnests applisablc to their
                           work on the Panel.

                                     DSWA Response.      DSWA nonconcurs.        While WC have no objection to &II
                           financial disclosure and v.+ll require such discloarre in the future. there is no legal basis to
                           go back r&r completion of the performance of a contract and change be terms of the
                           cootract.   Moreover, in view of the NWEP membed agreements not to disclose or use to
                           competitive advantage my information acquired in the course of the NWEP effort, no
                           actiou is necessary.

                                    Recommendation      d. Direct contracting officers to evaluate the firms that
 D&td
                           received subcontracts for Panel members for indications of orgaeiaatioual contlicts of
                           interen on future contract rquirements    involving the Nuclear Weapon Effects Program
                           and, ifappropriate,  preclude them from bidding on the contracts

                                     DSWA Ruponse.         DSWA nonconcurs.     In view ofthe nondisclosure/non-use
                           rg,recments tiged by tbc members of tbe NWEP, no such draconian measures are
                           necessary.    More importantly, having made A deliberate decision to reiy upon the
                           iodtidual   restrictions and not to disqualify the employing contractors Gotu future work.




                                                                          34
                                       Defense Special Weapons Agency Comments




                                                                                              Final Report
                                                                                                Reference



NWE Panel Report



DSWA cannot now, after the ha. undertake to disqualify these contractors. This
recommeodatioo. made in IirlJ knowledge oftbe nondisclosure/non-useagreemants, raises
a lImdametttaJqucstiotl. Is there any way tbe Deprrtment of Defbnae can obtain e%pm
advice &oar employees of defbnsecontractors witbout disquali@ng the defmse
contractors 6om fttttue work? During an informsJresolution meeting witb the authors of
tbe drag, we raised this question. lIte authors acknowledged that the normal practice was
to obtain such agreements and offered no better solution to the perceived probkm.

        Turning to the text of the report, the auditors rpyur to focus upon three issues
not raised by the allegations. First, they discussthe earlier findings of a Procurement
Management Review (PMR) ofthe SETA contract pursuant to wbicb the NWEP was
conducted. The PMR recommended that a sole-sourcejusti6cation and approvll (J&A)
be prepared before entering into work “out-of-scope under the contract.” Tbc auditors
made tbe point that no such J&A bad been formally approved in this case. The statement
of work in the prime contract provides, in pertinent part, tbat “[The contractor shall
supply support witbin all levels ofthe DNA organimtion for NWE and CWE
(conveotional weapons effects) and related or supporting RDT&E (research,
development, test and evaluation).” The NWEP was establiied to perform a study and to
esrpblishthe rationale and main features of a program that preserves the long-term quality
and reliability of nuclear weapon effects technology fix DOD while incorporating new
technology into use&iatdly tools for war6gbters. Not surprisingly, both the DSWA
Goneral Counsel and tbe DSWA contracting officer determined that the work was within
the scope ofthe contract. This being the case, the discussionregarding the fiilure to have
a formal@ approved J&A is true, but irrelevant.

        A similar disconnect occurs Gtb respect to personal services. The auditors note
the requirement to obtain written opinion from legal counsel “in doubtful cases” and noted    Rev&l
that no written opinion was requested in this case. However, there is no evidence
whatsoever that this coutract involved personal se&es       During the informal resohrtion
meeting with tbe authors, DSWA invited them to present whatever basis they had for the
assumption rhat the contract involved personal servkes. The only evidatce they cited was
that the Chairman of the NWEP was identified by name in the technical instruction. That
being true, it is dii%icuJtto see bow this could be characterized YSa “doubtful case.” Once
again, the discussionis true, but irrdevant.

        Finaily. we must address the Federal Advisory Committee Act (FACA) issue.
About 20 to 25 percent of tbe repon is devoted to a discxssionof tbe quali&ationr of the
Defense Science Board (as an “approved FACA”) and of actions which would have been
required under tbe FACA bad tbe NWEP been a committee subjectto tke FACA.
However, the members of the NWEP each bad a dihrettt area of subject-matter expertise
and tkc purpose of the NWEP was to gain the benef of that expertise on a subject-area
by subject-area basis. There was never an intent to obtain a collegial opinion and no
evidence that tbe NWEP functioned as a ctmmittcc subjectto the FACA We were
puzzled by the extnsive discussionof tbe FACA in the predrag report and, at the informal
resolution meeting, specifically asked the authors of tbe drag report wbetber it was their




                                            35
Defense Special Weapons Agency Comments




          view that the NWEP was a cotmnittee subject to tbe FACA. The aoswer was that they &
                                                                          The purpose of the
          discussion was merely to bighhgbt what would hove been required iftbe NWFP bad been
          subject to tbe FACA. Dncc again, the discussion appears to be true. but irrelevant

                 Tbe remaining recommmdatious     of the rapcut are as follows:

                 Recommcndatioa      a. lmpkmmt the recommm dations in the Jaouary I996
          Rocuremtnt  Maoagemmt      Review Report relating to contract DNAOOI-93-C-0 138

                  DSWA Rmspoasc. Concur. ‘fbe recommmdstions of the report have already
          been inpkmented. DSWA notes that, in this case, no J&A was required because the
          work of the NWEP was clearly within the scope of the cootract.

                  Rccommeudatioa    b. Initiate action to replace DNA00 I-93-C-O 138 with task
          order contracts io FY 1998.

                  DSWA Rupoosc. Nooconcur.With the consolidation of DSWA and other
          elements of the Depattmmr of Dafmse into a new rgmcy. tentatively named the Defmsr
          Hueat Reduction Agmcy, oa 1 October 1998,it will be necessary to review all of the
          SETA coutracts of the severaljoining elements. We auticipatc that DNAOOI-93-CO138
          wiu be replaced by a new contract. However, the type of contract to be used and the
          precise terms of the cootracc will be detcm&d  tier analysis of the rquiremmts.

                 DSWA Response      to Material Control Weakseas      dircuased in Appendix   A.

                  The auditors stated that they idmtided a material weakness in DSWA msnagemen~
          controls because they concluded that “agency managers did not comply with statutory and
          regulatory tequircmmts for preventing potential coo5icts of interest.” DSWA
          nonconcurs. The auditors were uttabk to identify any “statutory and regulatory
          requiremmts” which were violated, and we are aware ofoonc. DSWA considm the
          aomlisclosure/non-us agreementssigned by the NWEP members to be an dfcctive
          response to the potential conflicts of interests associatedwith the NWEP effort.

                   We appreciate the courtesies extmded by the audit aaa iocludiug the opportunity
          to discuss the predraft repon duriog the resohrtion meeting. This audit concerns critical
          issues regarding the abi     ofthe Departmetu of Defmse to obtain expert advice from thr
          private sector wicbout creatiog actual comtlicts ofinterest or iocumiog unacceptable
          disqualifiutioo of siguificant pottious of the defense contracting cotmuuuity. lt is
          unfortunate that we were apparmtly unable to dkctivdy cotmuuuicate our views to the
          authors of the report. We would welcome the opportunityto engage in a focused
          discussion of this importsnt issue.

                 If you have any questioos rcgardmg these couxtmts      please contact CAPT Pbillip
          H. CrowelI, Inspector General. DSWA at (703) 325-7096.



                                                      4




                                                     36
Audit Team

This report was prepared by the Contract Management Directorate, Office
of the Assistant Inspector General for Auditing, DOD.

Paul J. Granetto
Garold E. Stephenson
Eric B. Edwards
Harvey I. Gates
Ana M. Myrie
